No.

EEE
IN THE

Supreme Court of the Anited States
MONEX DEPOSIT COMPANY, ET AL.,
Petitioners,

Vv.

COMMODITY FUTURES TRADING COMMISSION,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 23rd day of January, 2020, that the Petition for a Writ of
Certiorari contains 8,995 words, excluding the parts of the document that are

exempted by Supreme Court Rule 33.1(d).

 

72
William M. Jay

GOODWIN PROCTER LLP

1900 N Street, NW
Washington, DC 20036
wjay@goodwinlaw.com

(202) 346-4000

Counsel of Record for Petitioners

January 28, 2020
